<html>
<title> - CENSUS 2010: HARD-TO-COUNT POPULATIONS WITH SPECIAL LIVING CONDITIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]








 CENSUS 2010: HARD-TO-COUNT POPULATIONS WITH SPECIAL LIVING CONDITIONS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2010

                               __________

                           Serial No. 111-85

                               __________

Printed for the use of the Committee on Oversight and Government Reform




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
61-934 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSPEH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2010....................................     1
Statement of:
    Driehaus, Hon. Steve, a Representative in Congress for the 
      State of Ohio..............................................     5
    Duncan, Todd, director of housing and food services at the 
      University of Cincinnati...................................    61
    Hopkins, Suzanne, director of programs, the Center for 
      Independent Living Options, Inc............................    50
    Mallory, Mark, mayor of Cincinnati, OH.......................     6
    Mesenbourg, Thomas L., Deputy Director, U.S. Census Bureau...    17
    Riviero, Jason, Ohio State Director, League of United Latin 
      American Citizens..........................................    43
    Scharfenberger, David, lead organizer, Training & Outreach 
      Programs, Working in Neighborhoods [WIN]...................    35
    Spring, Josh, Greater Cincinnati Coalition for the Homeless..    55
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Duncan, Todd, director of housing and food services at the 
      University of Cincinnati, prepared statement of............    63
    Hopkins, Suzanne, director of programs, the Center for 
      Independent Living Options, Inc., prepared statement of....    52
    Mallory, Mark, mayor of Cincinnati, OH, prepared statement of    10
    Mesenbourg, Thomas L., Deputy Director, U.S. Census Bureau, 
      prepared statement of......................................    19
    Riviero, Jason, Ohio State Director, League of United Latin 
      American Citizens, prepared statement of...................    46
    Scharfenberger, David, lead organizer, Training & Outreach 
      Programs, Working in Neighborhoods [WIN], prepared 
      statement of...............................................    38
    Spring, Josh, Greater Cincinnati Coalition for the Homeless, 
      prepared statement of......................................    58

 
 CENSUS 2010: HARD-TO-COUNT POPULATIONS WITH SPECIAL LIVING CONDITIONS

                              ----------                              


                         MONDAY, MARCH 8, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Cincinnati, OH.
    The subcommittee met, pursuant to notice, at 2 p.m., at the 
Main Street Cinema, 256 Tangeman University Center, University 
of Cincinnati, Cincinnati, OH, Hon. Wm. Lacy Clay (chairman of 
the subcommittee) presiding.
    Present: Representatives Clay and Driehaus.
    Staff present: Darryl Piggee, staff director/counsel.
    Mr. Clay. Good afternoon and welcome to today's hearing 
entitled, ``Census 2010: Hard-To-Count Populations With Special 
Living Conditions.''
    Today's hearing, as the title indicates will examine the 
2010 census efforts to enumerate those hard-to-count 
populations with special living conditions.
    The hearing will examine the Census Bureau's activities in 
preventing an under-count of these populations. We will further 
examine avenues to aid the Census Bureau in its efforts to 
reach those who are most likely to be under-counted and 
minorities. Today's dialog will ultimately lead to a better 
understanding as to what can be done to ensure the success of 
the 2010 census.
    We have with us today, my distinguished colleague in this 
hearing, Mr. Steve Driehaus, and I want to thank you for this 
invitation to Cincinnati. We could not have picked a better 
city or a better time to conduct this hearing seeing as census 
forms will be going out as of next Monday. We would urge all 
Americans to mail--to fill out the questionnaires, 10 
questions, and send them back in the mail.
    And without--and so thank you, again, Representative 
Driehaus for the invitation. Without objection, the chair and 
ranking member will have 5 minutes to make an opening 
statement, followed by an opening statement from Representative 
Driehaus. I will begin with the opening statement. The purpose, 
again, of today's hearing is to examine and discuss efforts to 
enumerate hard-to-count populations with special living 
conditions. And I also want to thank you, Representative 
Driehaus and his staff for hosting today's hearing, and for the 
courtesies afforded to this subcommittee. As Congressman 
Driehaus knows and many of you know as well, Cincinnati has a 
particularly important history with the census. And much can be 
gained from the testimony we will hear today.
    The city of Cincinnati contains a perfect microcosm of 
these hard-to-count groups. We hope to learn by Cincinnati's 
example as the local communities are key to the count. Further, 
I solute Dr. Groves and the Census Bureau for their efforts. 
Census day is less than 4 weeks away, so let's work together 
and exchange ideas to ensure an accurate count.
    On our first panel, we will hear from the Honorable mayor 
of Cincinnati, Mark Mallory. And Mayor Mallory will enlighten 
us on Cincinnati's plan to achieve full participation, and 
share with us the recommendations of the U.S. Conference of 
Mayors' Taskforce on the Census.
    We will hear from Dr. Thomas Mesenbourg. Mr. Mesenbourg 
will testify about the Bureau's strategy and ability to count 
those in special living conditions.
    Our second panel includes civic leaders dedicated to 
community participation, education, and quality. This panel is 
acutely aware of the challenges of enumerating the hard-to-
count population. We look forward to their insight into these 
efforts. I thank all of the witnesses for appearing today, and 
look forward to their testimony, and now I recognize 
Representative Driehaus for 5 minutes.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
STATEMENT OF HON. STEVE DRIEHAUS, A REPRESENTATIVE IN CONGRESS 
                     FOR THE STATE OF OHIO

    Mr. Driehaus. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing in Cincinnati. As you know, as 
soon as we began the process of talking about the census, I 
approached you and asked officially--it was over a year ago--to 
hold a hearing in Cincinnati, knowing the efforts of the mayor 
and knowing the efforts of other individuals here in 
Cincinnati, to make sure that we do have an accurate count. And 
my experience in the foreclosure taskforce in the State of Ohio 
helped me better understand how challenging this is going to be 
this time when it comes to identifying, especially those 
households that are in transition due to foreclosures.
    As you know, the Constitution mandates that we hold the 
Census every 10 years. It helps determine the distribution of 
more than $400 billion of financial aid to citizens, to States, 
and to municipalities. And it's used to support education, 
health care, and transportation initiatives and impacts us in 
our day-to-day lives. States also use the information from the 
Census to provide funding to municipalities, which is a very 
significant issue here in the Greater Cincinnati area because 
we have several very small municipalities and that threshold at 
5,000 is important. So this count is specifically very 
important to cities like St. Bernard and other small cities in 
addition to the importance it has to the city of Cincinnati.
    As was mentioned in 2005, the city of Cincinnati challenged 
the population estimate of the 2005 American Community Survey. 
And while the American Community Survey isn't the Census, that 
snapshot of the population was critically important to 
determine some of the funding levels coming from the Federal 
Government. We do have with us today the distinguished mayor of 
Cincinnati, Mark Mallory, and the mayor has been leading the 
charge to challenge those numbers on behalf of the residents of 
the city of Cincinnati, and has helped other mayors throughout 
the country learn how they might better reach out to hard to 
reach populations to help the Census and the community survey 
better understand how to count those populations. We have 
several hard-to-count populations here in Cincinnati. And as 
you mentioned, we are a microcosm because when you talk about 
the dislocation that has occurred because of--because of 
homelessness, because of the foreclosure crisis or in terms of 
reaching out to low and minority communities, low income and 
minority communities that we have here in Cincinnati. We also 
have a growing Hispanic community, who we will hear from today. 
We also have people with disabilities, who are traditionally 
more difficult to count as we move forward with the Census. So 
I look forward to this hearing to help really draw attention to 
the importance of the Census, and helping the residents of 
Greater Cincinnati understand the importance of participating. 
But also to have a dialog between the representatives of the 
hard-to-count populations and the Census Bureau to talk about 
what methodology we are using to specifically reach out to 
those hard-to-count populations. And what avenues we are 
exploring, especially given the technology we now have before 
us, to reach out to those populations and get as accurate a 
count as possible.
    So, I want to again thank you very much, Mr. Chairman, for 
you agreeing to come here to Cincinnati and hold this hearing 
on this critically important issue especially as we approach 
census day on April 1st. And so with that, I'll turn it back 
over to you.
    Mr. Clay. You're very welcome, Representative, and you may 
have the pleasure of introducing our first panel. This is your 
hometown, and I'll allow you to do that.
    Mr. Driehaus. Do you want me to read what you've written 
here or do you want me to----
    Mr. Clay. You may as well.
    Mr. Driehaus. OK. I won't tell you the background between 
the mayor and myself. I want to start by introducing first our 
mayor, the Honorable Mark Mallory. Mayor Mallory is a national 
leader on Census counts in urban areas. As mayor, he 
successfully challenged the 2005 census estimate for Cincinnati 
adding 22,000 people to the population. Since then he has made 
numerous presentations on the subject and was honored in 2008 
with an appointment as chair of the newly formed 2010 Census 
Taskforce for the U.S. Conference of Mayors.
    Mayor Mallory is a life-long Cincinnatian; born and raised 
in the West End. He is a graduate of the Cincinnati Academy of 
Math and Science and earned a Bachelor of Science degree in 
administrative management from the University of Cincinnati, 
our host. And let me, again, thank the University of Cincinnati 
for their hospitality and their willingness to host this 
hearing here on campus.
    Next, we have Mr. Thomas L. Mesenbourg, Acting Deputy 
Director of the U.S. Census Bureau. Mr. Mesenbourg has worked 
at the Census Bureau since 1972. In 2004 he was the recipient 
of a Presidential Rank Award for Distinguished Senior 
Executives, the Government's highest award for career 
executives.
    Mr. Mesenbourg earned his Bachelors degree in economics 
from Boston University in 1968 and his Master's from Penn State 
in 1971. So with that, I would like to open it up, and I know 
you want to swear in our----
    Mr. Clay. Thank you so much, Representative. If I could ask 
both witnesses to stand, please. It's the policy of the 
committee to swear in all our witnesses testifying. So, raise 
your right hands and repeat after me.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated. Let the record 
reflect that both witnesses answered in the affirmative. Each 
of you will have 5 minutes in which to make opening statements 
and your complete written testimony will be included in the 
hearing record. And Mr. Mayor, we will proceed with you.

       STATEMENT OF MARK MALLORY, MAYOR OF CINCINNATI, OH

    Mr. Mallory. Thank you very much, Congressman Clay. Members 
of the distinguished Information Policy, Census, and National 
Archives Subcommittee, thank you very much for affording me the 
opportunity to offer testimony today. Congressman Clay, this is 
the second time I've had the distinguished opportunity of 
presenting to your subcommittee. The first was in St. Louis; 
you were very gracious and a wonderful host and I thank you for 
that.
    Congressman Driehaus, thank you very much for not only 
being the host for today's subcommittee meeting, but for having 
the full understanding of the importance of this issue as it 
relates not just to the city of Cincinnati but to the Nation 
itself.
    The focus of this hearing is on hard-to-count populations. 
Approximately 95 percent of the Census tracts in Cincinnati are 
designated as hard-to-counts by the U.S. Census Bureau. 
Therefore, all of our Census activities--are on hard-to-count--
activities are really focused in this area, and I can think of 
no better city to hold this hearing than the city of Cincinnati 
based on the history that we have had with the Census.
    So in my testimony today, I'm going to share with you the 
challenges that Cincinnati faces; in particular in counting our 
hard-to-count population. For the purposes of background, I'm 
going to give you an overview of the Census activities under my 
administration, and I'll include an update on the efforts by 
the U.S. Conference of Mayors' Census Taskforce.
    To take you back, in 2006 the Census Bureau estimated 
Cincinnati's population at 308,728 people, a decrease of 6.8 
percent since the 2000 census. Now, the estimate became the 
source of headlines for many articles stating that Cincinnati 
was dying and that people no longer wanted to live or invest in 
our city. I knew those numbers could not be correct. They do 
not reconcile with the new development that was taking place in 
the city of Cincinnati. Since the year 2000 there have been 
numerous housing and other development projects that did not 
seem to be accounted for in the new estimates.
    When I learned that cities could indeed challenge their 
estimate, I directed our Planning Department to conduct an 
analysis of Cincinnati records including building permits, 
demolition permits, and conversions of buildings into 
apartments and condominiums. The analysis was submitted to the 
Census Bureau as a challenge to the estimate and in a few short 
months we were notified by the Census Bureau that our data was 
indeed accepted. Our population estimate as a result of that 
challenge was increased to 331,310 people, and that recognized 
an additional 22,000 residents from the initial estimate.
    Now, that number helped disprove the reports that our city 
was in a state of decline, and it was the beginning of the 
turnaround for the image of our city; not only for residents, 
but for investors as well. Subsequent to that, in 2007, we 
commissioned Social Compact to conduct a comprehensive analysis 
of Cincinnati's population. Using their analysis, we now know 
that the city of Cincinnati's true population is 378,259 
people. That's a 13 percent increase over the 2000 census, and 
that number helped us refocus our approach for the 2010 census. 
And what I mean by that is, our approach in Cincinnati is that 
we are not going to count the population this year, we are 
going to account for at least 378,259 people. That's is a major 
shift, I think, in the way cities approach the Census.
    If, for example, a neighborhood is counted and we find 
fewer people than we expected to find in that particular 
neighborhood, we are going to invest more time and more 
resources going back into that neighborhood until we are 
satisfied that we have accounted for everybody there.
    One challenge that we recognized early on was that City 
Government can't do this alone. We established our Complete 
Count Committee nearly 2 years ago, and I appointed the 
president of the Greater Cincinnati Urban League and the 
director of our planning department at the city of Cincinnati 
as co-chairs of the effort to ensure that we have an accurate 
count.
    That committee was charged with developing a comprehensive 
plan to build awareness for the Census and to ensure that all 
of our citizens were accounted for. And one of the things that 
I have stressed locally and nationally is that we have to 
partner with the U.S. Census. We can't expect the Census to 
come in town and conduct a count that is expected to be 
accurate if we are not active and involved with the U.S. 
Census.
    Another challenge that we face, of course, is getting 
people to understand the importance of the Census, getting them 
to understand what it is that we are trying to achieve beyond 
the Federal dollars that come to a city. This really has 
effects on the perception of the city itself. So in Cincinnati, 
once we created our Complete Count Committee we did a branding, 
and we called our efforts in Cincinnati ``Cincinnati Counts,'' 
which is the basis for our educational and awareness campaign. 
And we launched ``Cincinnati Counts'' on April 1, 2009, and I 
declared this entire year from April 1, 2009 to April 1, 2010 
as census year in Cincinnati.
    So to build awareness, ``Cincinnati Counts'' has 
distributed T-shirts, bumper stickers, flyers and buttons to 
the Complete Count Committee members, who have in turn 
distributed those materials to their clientele and to their 
targeted communities.
    One of our strategies was to make sure that we had 
representation on the Complete Count Committee from every 
targeted community we could identify. We have provided street 
banners and posters for windows of businesses in business 
districts and we have participated in more than 150 community 
events, and we have made presentations to countless community 
groups.
    We have engaged our partners to assist us in this effort. 
Here's an example, the Avondale Youth Council knocked on more 
than 1,000 doors recently to build awareness around the Census. 
We have provided materials to the Greater Cincinnati United Way 
to distribute though their member organizations and recently 
the Cincinnati Enquirer highlighted the difficulty of getting 
an accurate count in the Over-The-Rhine neighborhood. And one 
of our partners in that area, Emmanuel Community Center, has 
been helping to build awareness with regular events and the 
distribution of materials. Again, our strategy has been to 
engage those agencies and individuals that represent the hard-
to-count populations.
    Cincinnati has partnered with the Census Bureau to talk 
about the Census in houses of faith. And last October and again 
this month, nearly 100 different faith organizations across our 
city participated in including Census information in their 
bulletins. They posted a copy of the Census questionnaire. They 
included Census facts in an email blast to their congregations. 
Again, these are all strategies aimed at getting to as many 
people as we can.
    We have sent emails to the presidents of the 52 community 
councils. We have sent out additional targeted emails to those 
communities that we know are targeted and difficult to count, 
and we continue to not only inform people about the importance 
on the Census itself but we are talking to them about the fact 
that there are jobs available. Particularly in this job market, 
it is a great thing to know that someone is hiring. And we, of 
course, are hoping to utilize as many local people in the very 
communities that we are counting. The count in those 
communities--we figure that familiarity will help us get a more 
accurate count.
    Now, as mayor, I understand how critical an accurate count 
can be to the city. It impacts the Federal dollars that we 
receive. It also impacts the image of our city. If a population 
is declining it is a signal to investors, to businesses, and to 
residents that there's no future in their city.
    Now, I've discussed the importance of an accurate count 
with mayors across the country through the U.S. Conference of 
Mayors. It was in 2008 that I was appointed as the Chair of the 
2010 Taskforce, which was formed to focus on fostering 
partnerships between the cities and the Census Bureau. In that 
role I convened a series of taskforce meetings on a number of 
topics and we have been able to get information out to more 
than 1,000 mayors across though country. Over the last 2 years, 
we have been able to share best practices, offer presentations 
from Census Bureau representatives, and hear from experts on 
Census issues. In 2008--excuse me--our workshop focused on how 
to challenge Census estimates; and in 2009 we reviewed actions, 
steps, and strategies for creating Completing Count Committees.
    So, now, we are at the final push as we look toward the 
next 23 days leading up to census day 2010. The city of 
Cincinnati, ``Cincinnati Counts'' campaign is working to turn 
awareness into action. Our focus at this point is to motivate 
residents to complete the form and mail it back: ``Ten 
questions. Ten minutes.'' We want everyone to hear that message 
and to take that action.
    We want to make sure there's a deeper connection that 
people have knowing about the Census, and knowing how an 
accurate Census impacts their lives. So, we are now working 
with the Census on specific fact sheets, partnering with media 
outlets for promotion of census day activities and creating 
other activities with our partner organizations that are 
tailored to their memberships. Again, all to get them to 
understand why this is so important.
    We understand that the work does not end on April 1st. We 
are committed to working with the U.S. Census as long as it 
takes in order for this count to be complete. Again, we want to 
ensure that in the city of Cincinnati we have a Census count 
that indicates our population is at least 378,259 residents. I 
thank you for your time, and I would be happy to answer any 
questions.
    Mr. Clay. Thank you so much, Mr. Mayor, for that testimony. 
Now, we will turn to Mr. Mesenbourg. You have 5 minutes.
    [The prepared statement of Mr. Mallory follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
STATEMENT OF THOMAS L. MESENBOURG, DEPUTY DIRECTOR, U.S. CENSUS 
                             BUREAU

    Mr. Mesenbourg. Chairman Clay, Congressman Driehaus, I 
appreciate the opportunity to testify before you about the 2010 
census. The Census Bureau's primary goal is to count everyone, 
count them once, and count them in the right place. This is a 
daunting task, and current economic conditions make it even 
more difficult this decade. Foreclosures, displaced households 
and individuals, homelessness, natural disasters, and unusual 
living arrangements do pose challenges to the count, but we 
believe we have procedures in place to ensure that we count 
everyone.
    Let me start with a brief discussion of one of the 
fundamental principals we use in conducting the count, that is 
of ``Usual Residence.'' The Census Bureau's Usual Residence 
Rule is grounded in the Census Act of 1790, which governed the 
very first census. The concept of Usual Residence remains 
intact today. The Usual Residence Rules intended to count 
people in the place where they eat and sleep most of the time.
    I'd like to start by describing some of the challenges we 
face because of economic dislocation and unusual or 
nontraditional living arrangements, and what we are doing to 
address these challenges. Most residents live in traditional 
living arrangements, i.e. single-family homes, townhouses or 
apartments. But there is a segment of the population that 
reside in what we would call group-quarters facilities, such as 
college dormitories like the ones at the University of 
Cincinnati. We have tried and tested procedures and processes 
in place to count college students, and other individuals 
living in group quarters facilities.
    Now, because of economic conditions many families and 
individuals have been forced to relocate. Some may have been 
forced to abandon their foreclosed homes and move into 
apartments, others may have moved in with family or friends and 
others may be experiencing homelessness or living in 
campgrounds or other transitory locations.
    While economic conditions pose new challenges, we believe 
we have procedures in place to count households or individuals 
that have been dislocated. Foreclosure is at a record level, 
but every foreclosed property, if still standing, is included 
on our Master Address File whether or not the unit is occupied. 
Now, Census forms will show up in 121 million mailboxes next 
week between March 15th and March 17, 2010. Now, if the 
property is unoccupied the form may be returned to us by the 
Postal Service as being undeliverable, but beginning May 1st 
all addresses from which we have not received a report form 
will be contacted by an enumerator and will be contacted up to 
six times until we actually get information on that housing 
unit and the individuals that live in it. Addresses that are 
designated at the end of this process as being vacant and 
unoccupied will be included in the housing count. But, of 
course, they will have no population counted in the 2010 
census.
    Now, individuals and families that have moved will be sent 
a 2010 census Form at their new address. If people have moved 
in with their relatives or friends they should be counted as 
part of that household. And we have added a new question to the 
2010 Census Short Form to get at this issue of dislocation. We 
have also developed advertising directed at those segments of 
the population that may have been impacted by the economic 
conditions. Those ads will be running on radio and in print 
media. Our vast network of partner organizations, which include 
the Complete Count Committee in Cincinnati, which Mayor Mallory 
has done such a fine job with, now number over 210,000 
organizations across the country. And they play a key role in 
getting the message out about how important the Census is.
    Procedures are in place to count college students that live 
in dorms or other college facilities. These students will be 
counted at the university or college dorm or the fraternity or 
sorority house where they live. We have just completed the 
advanced visit to all group-quarters facilities and will begin 
data collection on April 1, 2010. Students living in off-campus 
housing will receive a 2010 Census Form at their address on 
campus and we would ask them to fill it out and mail it back. 
Parents whose child or children who do not live at home but 
live in a dormitory away from home will be instructed not to 
include them on their Census forms. That's another addition to 
the short form. Respondents displaced by natural disasters for 
an extended period of time will generally be counted where they 
reside on or about April 1, 2010. Populations affected by 
Hurricanes Ike, Katrina and Rita will be counted where they 
currently live and sleep most of the time as of April 1, 2010. 
For areas that were specifically affected by these hurricanes, 
we have taken special measures to ensure that we have an 
accurate count. We have hired additional staff and hired them 
early, provided extra training and added additional local 
Census offices in the affected areas, and we have also launched 
an aggressive outreach and partnership effort in these areas. 
The workers that we have hired in these hurricane-impacted 
areas will also be used to update our address list in these 
areas and we'll actually deliver a form to the housing units.
    In addition to the traditional enumeration of housing units 
and group quarters, the Census Bureau has developed a Service-
Based Enumeration operation to reach people experiencing 
homelessness. These people will be enumerated at the locations 
where they receive services. This operation was specifically 
designed to enumerate people who use service facilities because 
they may be missed during the traditional enumeration of 
housing units and group quarters. These service locations and 
pre-identified outdoor locations include: Shelters, soup 
kitchens, and non-sheltered outdoor locations. These are pre-
identified sheltered outdoor locations where people live for 
free and we depend upon our partners to help us identify where 
these areas are located. We will be conducting the Service-
Based Enumeration Operation March 29th through March 31, 2010.
    In conclusion, Mr. Chairman, Congressman Driehaus, I want 
to close by reaffirming the Census Bureau's commitment to an 
accurate count in the 2010 census. A decade of planning has 
ended and now the count begins. We believe we are prepared to 
face the challenges I've discussed, and the Census Bureau looks 
forward to working with this subcommittee and all of our 
200,000 partners, in making this the most successful Census 
ever. Thank you.
    [The prepared statement of Mr. Mesenbourg follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you so much, Mr. Mesenbourg. Representative 
Driehaus, you're recognized for questions.
    Mr. Driehaus. Mayor, if you could, just guide us through, 
you know, what was the thinking? When you initially challenged 
the Census count or the count that was challenged in 2005 and 
2006, what did you learn about the consequences of not 
accurately counting the population in terms of funding 
ramifications or other ramifications that would impact a city 
like the city of Cincinnati?
    Mr. Mallory. Congressman Driehaus, we felt it was very 
important upon receiving the Census update number in 2006 to 
really make sure that we had an accurate representation of what 
was going on in Cincinnati. Obviously, through the Census 
challenge, we were credited back with more than 22,000 
individuals. But through that process we learned that the U.S. 
Conference of Mayors did an estimate sometime ago--I believe 
after the previous Census--that for each individual missed, a 
city is out of about $2,067 per person per year. So, for the 
city of Cincinnati, if we look at the count that we believe to 
be correct that was conducted by Social Compact we are out of 
about $104 million in various sources of State and Federal 
funding for the last 10 years. So, $104 million that could have 
gone to do a lot of great things in the city was missed, 
because we did not get the most accurate count possible.
    Mr. Driehaus. You reference Social Compact and the count 
that was conducted by Social Compact. What methodology was used 
by Social Compact and are there things that they are doing that 
we can learn on the Census side as we go through this 
enumeration? And I'm specifically concerned, obviously, about 
the hard-to-count populations, you know, what did Social 
Compact do that might be different than what the Census is 
doing?
    Mr. Mallory. Social Compact is an organization that really 
focuses on information, information mining. They specialize in 
it is what they do. They are a non-profit organization. They 
have no interest other than providing accurate information to 
whoever it is that seeks the information. They use 27 different 
data points to establish that a person may be living at a 
particular address. So--excuse me--in addition to using 
certificates of occupancy, they use things like Duke Energy 
bills and telephone bills and credit card information and cable 
bills, to determine that a person may be living at an address. 
Those are things that can sometimes--things that are missed in 
the current processes that we have.
    Mr. Driehaus. Mr. Mesenbourg, following up on that, this is 
a concern of mine, and I think it's the concern of many on the 
subcommittee. That because, you know, we do go out there and we 
depend upon the Census forms being returned and then if they 
are not returned and we go back and knock on the door, and you 
mentioned you do that up to six times, to what extent are we 
using secondary resources like the 27 examples--though 27 were 
not provided--the various examples of secondary resources that 
are available to us to identify that, in fact, someone is 
living at the residence? If they didn't answer the door on the 
second or third time, what's the chance that they are going to 
answer it on the third or sixth? Doesn't mean they don't live 
there, just means we are not counting them. How are we, as the 
Census, using this secondary information to make sure the count 
is accurate?
    Mr. Mesenbourg. Perhaps a few words about the challenge 
process of the pop estimates. The pop estimates--we put out 
estimates for the Nation, for States, for counties and for 
local jurisdictions. The State--the national, State, and county 
levels are based on administrative records. And what is key is 
what the 2000 base was. So, that is basically the starting 
point. We then add births. We subtract deaths, and then we 
collect a measure of migration, both international and 
national--domestic. Those figures are put out, the national and 
State in December. The sub-county levels typically in the May/
June period.
    Mr. Driehaus. If I could stop you for a second. You 
mentioned your base is the 2000 count. Now, we have an example 
when that was challenged and effectively challenged. So, do we 
still use the 2000 count for the base or do we use an alternate 
base depending upon a challenge?
    Mr. Mesenbourg. We use the 2000 base as the base for the 
population-estimates program. Those are events come from 
administrative records: Births, death records, and the 
international migration and the net migration. The Census, what 
we are going to do is, we are going to use the Master Address 
file that we have created over the decade. So starting in 2007, 
local jurisdictions have the opportunity to review our address 
file and update that and provide us with additional lists. In 
fact, Cincinnati provided us with 13,000--12,000 to 13,000 
additional addresses. Those addresses then went into what we 
call the Address Canvassing Operation where we send 150,000 
enumerators across the country between late March 2009 and July 
2009. The purpose of that operation was to get at as complete 
an address list as we could before the Census. We provided 
feedback back to the local jurisdictions, and they had the 
opportunity to appeal those addresses, and the addresses that 
they appealed are going to be included in the Census mail.
    So, the key to a complete Census is the completeness to 
our--of our Master Address file. So, beginning next week we 
will mail out 121 million questionnaires to all of those city-
style addresses listed on the Master Address file. If people 
take 10 minutes to complete the form and send it back, an 
enumerator will never show up at their doorstep. If they don't, 
beginning May 1st we will send enumerators out and we will 
contact individuals up to six times. You're perfectly right, 
Congressman, it's not always obvious if somebody is living at 
that address, but we will take every effort we can to verify 
that. We do not rely on administrative records to make that 
determination. We depend on personal observations by the 
enumerator to do it. If the enumerator cannot--tells us that 
address is vacant or should be removed from the mail list, we 
go out and do one more check between mid July and mid August to 
verify that is actually a vacant and deleted effort. So we 
think we go to great lengths to make sure that we do not 
incorrectly delete any address off the address list.
    But to answer your question, we do not use administrative 
sources to make that determination. There may still be a 
utility connection and no one lives in the home. What we do 
depend on are partners like Complete County Committee in 
Cincinnati, local organizations in that area to help us get the 
message out to folks about how important it is to participate 
in the Census.
    Mr. Driehaus. Is the use of those secondary documents 
prohibited?
    Mr. Mesenbourg. It's not prohibited, but it's given that we 
will probably be sending enumerators out between 48 and 49 
million housing units. It's just not statistically feasible to 
use those and to have any hard evidence that the housing unit 
is actually occupied or it's vacant.
    Mr. Driehaus. But it does seem to me that if you are aware 
that there's a utility bill being paid, you know, at an 
address, if there's a cable bill being paid at an address, or 
you are aware that the property has been sold, at sheriff's 
sale, that would give you a pretty good indication as to 
whether or not an individual lives there. Now, you could go up 
to those homes and knock on the doors repeatedly and not have a 
good idea if someone lives there or not, but it seems to me 
that there are secondary resources that would allow you to make 
a pretty good guess as to which households and which apartments 
remain occupied, you could go back to those individual 
residents.
    Mr. Mesenbourg. Well, it could potentially provide housing 
information whether the housing unit was occupied or vacant. 
The administrative sources would not provide any information 
about how many individuals reside in that household, what their 
age was, what their characteristics are. So, that would be of a 
major--that would be a major problem from the perspective of 
the count.
    Mr. Driehaus. Sure.
    Mr. Mesenbourg. It could be useful in proving the count of 
occupied housing units. It would not help us much in terms of 
getting the count of the individuals that reside in that 
housing unit.
    Mr. Clay. Mr. Mayor, there's a wide variance in the Census 
estimates of 2005, 2006, from 308,000 to--you found 378,000? I 
mean, Social Compact. That's quite a wide variance. Could you 
talk a little bit about your work with the U.S. Conference of 
Mayors, if they found an additional 70,000 in a city like 
Cincinnati, then what impact does that have nationally in 
cities such as Atlanta or other major American cities? Are we 
missing the count? Are we that far off the count?
    Mr. Mallory. Well, Mr. Chairman, in some urban areas 
throughout the United States, certainly, I think we are. The 
U.S. Conference of Mayors has been focused on the issue for 
quite some time. As you can imagine, this is what the 
conference does is it concerns itself with the issues that 
mayors face specifically. And we have seen in community after 
community under-counts in predominantly urban areas that have 
resulted in funding that does not come through, not--you know, 
inappropriate representation in Congress and so on. The group 
that I've mentioned, Social Compact, has not just done the 
drill-down study in Cincinnati, they have done it in a number 
of cities across this country. They did it in Miami, in 
Detroit. They have done it in quite a few cities. I believe 
they did it in St. Louis as well.
    This is really an issue for the Nation itself, and working 
through the Conference of Mayors we have been trying to bring 
about awareness of the problem, trying to get mayors engaged so 
they understand they have to partner with the U.S. Census. It's 
cities that have and collect the information that is used in 
the Census challenge. The Census is simply asking you to fill 
out a form and to say, you know, how many numbers go in the 
various columns. We have all that information. So it's 
incumbent upon us as city mayors and city administrators of 
doing a good job of tracing the information so we can be as 
accurate as possible when the Census comes around.
    Mr. Clay. We will be--this subcommittee will be very 
interested in engaging with you and the U.S. Conference of 
Mayors in preparation for 2020 on how we can look at best 
practices, and figure out how we can get a more exact science 
here. I mean, in your unqualified estimate, when all of the 
numbers are in in the 2010 census, what do you think the 
population of Cincinnati will be?
    Mr. Mallory. Well, I'm hopeful that we will be able to 
illustrate that we have at least 378,259 people. We are going 
to work very hard to ensure that we get the most accurate count 
possible. I will say that there are still a number of concerns 
that U.S. Conference of Mayors has about how Census data is 
collected, about certain processes, certain issues that have 
been followed. I think that's been in the hall of Congress for 
a long time, but I think mayors will add their voices to the 
chorus saying that there do need to be some changes.
    So, I'm hopeful that we will come out of this with 378,259, 
but we will have to see.
    Mr. Clay. And apparently, you understand the importance of 
the Complete Count Committee as far as increasing awareness in 
the communities of the Census among hard-to-count populations. 
Can you give us some examples of Complete Count Committee and 
encouraging participation? I heard you say you started a 
Complete Count Committee in 2008?
    Mr. Mallory. We started 2 years ago, which is probably not 
typical for cities to do. The whole goal of Complete Count 
Committee is to make sure that the information about the 
importance of the Census is getting out. I think one of the 
advantages we have in Cincinnati is that I have been talking 
about the Census since 2006, because of the Census challenge. 
I'm hoping that people will be so tired of hearing me talk 
about it that they will fill out the form just to shut me up. 
We certainly have encouraged other cities to do the same thing, 
to set up their Complete Count Committees.
    I will tell you that there are cities that have not done it 
at this point in time and that's unfortunate, because it really 
takes someone from each of the targeted populations that can 
talk to those populations to get them to understand the 
importance of filling out that form and sending it back. There 
is still mistrust. There's still people that have concerns 
about the information being released to some other governmental 
agency, and I think we talked about this at length. Census data 
cannot be released in detail. It will not be shared with any 
other governmental agency.
    Sometimes that's a tough message to get across to people. 
We have tried very hard to get people that represent basically 
every community of the city filling out the form and sending it 
back.
    Mr. Clay. And the Census communication plan will convey 
that message also that the information that you provide will be 
confidential, will not be shared with any other governmental 
entity. As you say, it will be kept for 72 years.
    Mr. Mesenbourg, best practices. You know, looking at a 
group like Social Compact, how does work with the bureau on 
what will be best practices to--to motivate hard-to-count 
communities and to get the most accurate count possible for a 
future Census? And I look forward to working with you all to 
see if we can change some of the processes. I mean, you just 
mentioned in your opening statement that some of these 
practices have been going on since 1790, the first Census.
    Mr. Mesenbourg. With technology--technology has changed and 
I think there are great opportunities to leverage the local 
update of the Census address program, that now we did one time 
before the--census. So, I think it's critical as we start 
thinking about the 2020 census that we think of a process that 
is an ongoing process with local jurisdictions so they can feed 
us that information. So, we are not in 2018 starting with an 
address file that we need to update at that point but rather 
that we are in a position where the address file has been 
updated all through the decade with input from our local 
jurisdictions and our local partners, and we are more than 
willing to work with groups like Social Compact about how best 
to do that.
    And I think one of the big advantages of the challenge 
process is what it has done. It has convinced mayors in some 
cities about the importance of providing up-to-date information 
about construction permits, starts, and houses, housing units, 
and such; those all are input that can help us improve the 
address files. So, we look forward to coming up with new ways 
of doing that and certainly a lot of this information is 
available electronically, and we should be able to leverage 
that.
    Mr. Clay. Very good point on the challenge. Representative 
Driehaus?
    Mr. Driehaus. Thank you, Mr. Chairman. There was an article 
in the paper--I don't know if it was yesterday or a few days 
ago--about hiring especially in some of the hard-to-count 
neighborhoods and the difficulty we have seen in hiring given 
our dependence on enumerators and knocking on those doors. It 
concerns me that we are having difficulty hiring people from 
those very neighborhoods that we care so much about.
    Can you help me better understand how we are approaching 
that and whether or not we are making progress here in 
Cincinnati and throughout the country when it comes to local 
hirers who might be more familiar with the populations in those 
given neighborhoods?
    Mr. Mesenbourg. Sure, Congressman. A key tenet of our 
hiring is recruit and hire locally. This is especially critical 
as we look forward to the non-response followup operation that 
begins in May. We think it's critically important that the 
folks at these places that end up knocking on doors are people 
from those neighborhoods, people that are recognized within 
that neighborhood. So, our whole strategy will be to hire 
locally.
    Now--and I think you were referring to the USA Today 
article, that pointed out Cincinnati was one area where we are 
having some issues finding people with certain language skills. 
We continue to work that hard. Overall, for the nation, we are 
actually running at about 120 percent above our applicant 
target. Not surprising, given economic conditions. Where we 
have special language skills, we advertise those and those 
folks will go through a different process.
    So, we are focused on the 5-percent of the local Census 
offices, and we have 494 of those scattered across the United 
States. For 95 percent we are ahead of target in terms of 
applicant, 5 percent we are experiencing problems, and those 5 
percent we are focusing hard on getting the right kind of 
people in to apply. One of the ways we do that is also to use 
our partnership network to get the message out, get people of 
those language skills to actually come and take the test and 
score.
    So, to get hired, it's a completely competitive process. 
So, we start with the highest score and work our way down, but 
if we need people that speak Polish, Russian, something like 
that, that will become a different list of applicants and we 
will interview off that process.
    Mr. Driehaus. Are you convinced that those hires are going 
to be made before April 1st or shortly thereafter?
    Mr. Mesenbourg. Those hires will be made by April. We will 
start training for the non-response followup about the third 
week in April, and those folks will start knocking on doors May 
1st. So we--our goal is to actually have more applicants than 
we need to hire. Actually, about a factor of about four times 
as many people as we are going to hire, and we are making some 
progress across the country, but we have a few pockets that we 
have to do even more work on.
    Mr. Driehaus. And how long is the non-response followup 
going to take?
    Mr. Mesenbourg. Non-response followup is scheduled to go 
from May 1st to July 10, 2010, but that will depend on the 
cooperation of the American public. So, our greatest wish is 
that we have a tremendous response rate and will be able to 
finish that non-response followup even faster. If we have a 
worse-than-anticipated response rate, it will take a little bit 
longer. But if we do end early, the enumerators that we used on 
non-response followup will move into what we call ``Vacant 
Delete Check.''
    This is what I was mentioning earlier. If cannot--if we 
identify an address or housing unit as being vacant or 
unoccupied during non-response followup, we will send another 
enumerator out to verify that, and that will start about mid-
July through mid-August, that operation.
    Mr. Driehaus. Thank you.
    Mr. Clay. Thank you, Mr. Mesenbourg. In the 2000 census 
with group-quarters, was the under-count, what is the Census 
Bureau doing differently this year from how it handled group-
quarters in 2006?
    Mr. Mesenbourg. We have done a couple things different, 
Chairman, this time. The first we basically integrated the 
group quarter addresses into the Master Address file.
    Mr. Clay. OK.
    Mr. Mesenbourg. In 2000 we had a separate address file for 
group-quarters versus housing units. This time as part of the 
address canvassing operation that we did in 2009, we went out 
and checked out the addresses. If the address appeared to be a 
group-quarters or we were not quite clear whether it was a 
housing unit, we marked it as an other living-quarters.
    And then between September 23rd and October 23rd, we did a 
separate address validation of about 2 million of these other 
living quarter addresses. Turned out about 12 percent of them 
ended up to be group-quarters. Those could be dormitories, 
nursing homes, prisons, etc. So, that was one big change to get 
the address correct.
    Starting March 1st, we did what we call a Group-Quarters 
Advanced Visit where we sent an enumerator out to all of the 
group-quarters across the United States that was to establish 
contact. So, for example, the University of Cincinnati, we sent 
one of our staff out to meet with staff from Cincinnati and 
find out what is the best way to get data on all the students 
that live in dormitories, fraternity houses, sorority houses 
and so on; and we'd also asked questions: Where is the local 
housing in the Cincinnati area?
    Starting May 1st, then we will--that contact person will go 
back to their contacts at the University of Cincinnati and they 
will work on delivering forms, and with that contact we will 
address a form for every individual that lives here, and then 
we will arrange with the contact when we should come back and 
pick up those forms, if there are any special circumstances in 
terms of students who might be off. It's spring break, we work 
on that.
    I think those are going to be--the big changes are we think 
we have a much better address list, and we have a very focused 
operation through this advance visited and enumeration----
    Mr. Clay. Thank you for that. According to the Bureau, 
Census Tract 16 here in Cincinnati is the hardest to count in 
all of the State of Ohio, and the sixth hardest to count in the 
country. What additional measures is the Bureau taking to 
reduce this significant undercount in this tract?
    Mr. Mesenbourg. Our whole focus is on counting the hardest 
to count tracts. That has been the focus of our advertising 
campaign and our partnership program. So, I think there are a 
number of things that we implemented that ought to help. For 
the first time, this will be a short-form-only Census. It's 
``Ten questions. Ten minutes.'' In 2000 and the previous 
Census, 1/6th of the housing units got a long form. So, this 
Census you'll only get a short form.
    In areas with high Hispanic populations, 20 percent or more 
of the population, we will be sending out a bilingual English/
Spanish form to those areas, and our testing has shown that 
brings in a higher response rate.
    Now, for the hardest to count tracts--and this is based on 
their mail-back response rate in 2000 as well as later data in 
the American Community Survey. Beginning around the 1st through 
April 3rd, we will re-mail questionnaires to every address in 
those hardest to count areas. So, tract 16, everyone in that 
tract will get a Census form March 15th through March 17th, and 
then we will followup with a complete re-mail on April 1st to 
April 3rd. Testing has shown that should bump up the response 
rate also.
    This is a first time we have done a replacement mailing in 
the Census. We had not done that previously. And then we have a 
new program that we are going to unleash on April 10th. We are 
calling it a Neighborhood Blitz. This is being organized in 
those areas that we do a replacement mailing and those are all 
the hardest to count areas.
    We are working with our partners to actually make an event 
on that Saturday. It could be fire trucks going through the 
neighborhoods with Banner 2010. We are providing some T-shirts 
and that sort of thing. But it's really to get the message out 
how important it is to send that form out.
    The reason we are targeting the tracts where we are doing 
the replacement mailing is we will have just delivered another 
form to them. So, we want them to take the time to fill it out 
and get it back, and we are hopeful that will help. We are also 
advertising in 28 languages this time compared to about 18 last 
time. Our partnership staff, which I think is going to be key 
in doing this--we had about 600 people in 2000. We have 3,000 
people in 2010, and they speak 124 different languages in 
total.
    So between the replacement mailing, the short form, the 
partnership program and the communication campaign we think--we 
are quite hopeful that this is going to raise the response rate 
in the hardest to count tracts.
    Mr. Clay. Thank you for that answer. Representative 
Driehaus?
    Mr. Driehaus. When you mention the Hispanic communities, 
and the concentration of Hispanics in the given communities, 
how large of an area are you talking about when you are talking 
about the bilingual--we have a very small pockets within a 
given Census tract, but there might be a high concentration of 
Hispanic households, for instance, in that very small pocket.
    Mr. Mesenbourg. We look at the Census tract level.
    Mr. Driehaus. OK.
    Mr. Mesenbourg. That typically has about 4,000 individuals 
in it. If 20 percent or more of the housing units were Hispanic 
then we target them to get a bilingual form.
    Mr. Driehaus. Within the entire Census tract?
    Mr. Mesenbourg. Within the entire Census tract. So, the 
entire tract gets a bilingual form. After all, we don't know 
what language folks speak at any specific address. Now, if for 
some reason people did not get a bilingual form and want a form 
in Spanish, Chinese, Russian, Korean or Vietnamese, they can 
call our telephone assistance number and we will send them a 
form in that language to help hem also.
    Mr. Driehaus. Mr. Mesenbourg or the mayor, how are we 
partnering with Cincinnati Public Schools? When I think of 
hard-to-reach populations, the first-generation immigrant 
population, we find those families in Cincinnati Public Schools 
through the Academy of Foreign Languages or other schools that 
we have here in Cincinnati. Are we partnering in some way with 
Cincinnati Public Schools to reach out to families in some way 
to help them to better understand the importance of the Census?
    Mr. Mesenbourg. We have a Census in Schools Program that 
basically targets every school district in the United States, 
and we provided--we provided information, basically a 
curriculum plan that they can use. We agree wholeheartedly, 
Congressman, with your assessment that very often the best way 
to reach a family is through their children.
    So during March--and each school district can pick what 
week they do it--but during March they are going to do a 
curriculum that focuses on how to use Census figures and then 
also take home the message that the 2010 census Form is coming 
out in mid March and go home and tell their parents that it's 
important that they participate.
    Mr. Clay. Any more questions for this panel?
    Now, let me thank both witnesses for your testimony today. 
Again, Mr. Mayor, thank you for your hospitality. This is my 
first time to Cincinnati. You have a wonderful city, beautiful 
attractions, and I will be back. This panel is dismissed.
    Mr. Mallory. Thank you very much.
    Mr. Mesenbourg. Thank you.
    Mr. Clay. Thank you. Bring the second panel forward, 
please. We will now hear from our second panel. Representative 
Driehaus will introduce the panel.
    Mr. Driehaus. Thank you all very much for being here today. 
If I could just briefly go through the members of the panel 
before us.
    Our first witness is Mr. David Scharfenberger, director of 
training with the Working in Neighborhoods Organization here in 
Cincinnati. Working in Neighborhoods is an advocacy 
organization for home ownership. David has trained community 
leaders for over 30 years and brought people together to 
improve their communities. On the foreclosure issue, David has 
developed outreach efforts to inform groups about what they can 
do to address this issue and the resources available. A 
graduate of Xavier University, David also has a Masters in 
Social Work from the University of Louisville.
    Next we will hear from Jason Riviero. Jason currently 
serves as the Ohio State director of the League of United Latin 
American Citizens [LULAC]. LULAC is the oldest and largest 
Hispanic civil rights organization in the country. Under his 
leadership, LULAC has obtained over $500,000 to fund 
educational programs across the country. In addition, Jason led 
the campaign to bring the 2011 LULAC National Convention here 
to Cincinnati, which will bring over 15,000 attendees and over 
$3 million in revenue to the city.
    Next on our panel is Ms. Suzanne Hopkins, director of 
programs, the Center for Independent Living Options. Suzanne 
has 18 years in the disability services field. She manages the 
staff of CILO, which is the oldest center for independent 
living in Ohio, serving individuals with disabilities in the 
Greater Cincinnati, Northern Kentucky region. Founded by 
individuals with disabilities and chartered in 1977 as a 
501(c)3, is governed, managed, and staffed by a majority of 
professionals with disabilities. CILO programs include peer 
support, housing referral, and personal assistance services. 
Suzanne was the 2001 recipient of the Dixie Harman Memorial 
Award recognizing her advocacy for those with disabilities.
    Next, we will hear from Josh Spring, executive director 
with the Greater Cincinnati Coalition for the Homeless. Josh 
graduated from Xavier University with a Bachelors degree in 
social work and is a licensed social worker. Josh came to his 
position at the Coalition for the Homeless upon completing his 
tenure with the Over-The-Rhine's 250 unit community housing.
    Our final panelist is Mr. Todd Duncan, director of housing 
and food services at the University of Cincinnati with a total 
enrollment of over 40,000 students. Mr. Duncan is tasked with 
not only student housing but also with coordination and 
management of the campus's recreation center, which exemplifies 
the trends on college campuses for multi-use/multi-functional 
facilities. Mr. Duncan has served in similar positions at 
Northern Kentucky University, the University of Central 
Oklahoma, and Lindsey Wilson College. Mr. Duncan began his 
career at Western Kentucky University earning a Bachelor of 
Science in social studies and a Masters in education.
    I thank you all for appearing before us today.
    Mr. Clay. Thank you so much, Representative Driehaus. It's 
the policy of the subcommittee to swear all witnesses in. Would 
you answer in the affirmative?
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated. Let the record 
reflect that all witnesses answered in the affirmative. Each of 
you will have 5 minutes to make an opening statement and your 
complete written testimony will be included in the hearing 
record, and Mr. Scharfenberger, you may proceed.

 STATEMENT OF DAVID SCHARFENBERGER, LEAD ORGANIZER, TRAINING & 
       OUTREACH PROGRAMS, WORKING IN NEIGHBORHOODS [WIN]

    Mr. Scharfenberger. Chairman Clay, Congressman Driehaus, 
and members of the Information Policy, Census, and National 
Archives Subcommittee, I want to thank you for the opportunity 
to address you today regarding the hard-to-count populations in 
greater Cincinnati. I am here specifically to address the 
living conditions of those who have experienced or are going 
through foreclosure.
    My position at Working in Neighborhoods as director of 
training and lead organizer for Working in Neighborhoods, which 
is a nonprofit organization located in Cincinnati that began in 
1978 with the focus of empowering residents to improve their 
own communities and improved housing and community development.
    WIN is a HUD-certified foreclosure prevention and housing 
counseling agency serving Hamilton, Butler, Clermont, and 
Warren counties in Southwest Ohio. WIN has a track record of 
over 30 years of working with financial institutions and 
developing opportunities for qualified families to become 
homeowners. Since 1999, we began to see startling increases in 
the number of foreclosures.
    In order to respond to this need, WIN dedicated staff to 
provide individual counseling and advocacy for those families 
to help them work out plans to save their homes. Last year over 
700 families contacted us requesting assistance in saving their 
homes. Of these families, many get discouraged, and just give 
up or do not follow through. Because we have longstanding 
relationships with banks and the skill and persistence of our 
staff, we are able to save about 70 percent of the families 
with whom we work.
    In an attempt to document the number of families that lose 
their homes in Hamilton County we began to track the homes lost 
to due to foreclosure, actually sold at sheriff's sale since 
19--since 2002 we began this study. We record homes listed for 
sheriff's sale and sold, recording the address and the lender. 
We then compile a report, which I brought some copies of, of 
our last study. That gives the total number of homes foreclosed 
on in Hamilton County and breaks this number down by community 
and by lender.
    I will give some of our findings regarding foreclosure 
based on our research and also our work experience in the field 
of helping to save people's homes.
    Looking at our study, and our last study was done, released 
in March 2009, and so going back to the last 5 years from 2004 
through 2008, the total number of foreclosure filings was 
28,520: Homes lost to sheriff's sale during that 5-year period 
were 14,304 homes. If you assume that there are possibly three 
people in each home, that means a total of almost 42,912 
individuals who were displaced due to foreclosure.
    The percentage--if you look at the number of homes lost, 
and the number of foreclosure filings, the percentage of 
numbers of homes lost is about 50 percent to those who receive 
a foreclosure notice.
    We have not completed our study for 2009 yet. We do know 
that there were 6,714 foreclosure filings in 2009 in Hamilton 
County. If the percentage of properties sold at sheriff's sale 
to the total number of foreclosure filings is consistent with 
previous years, we may have lost 3,357 homes last year due to 
foreclosure with a possible 10,071 individuals displaced.
    If you look at the surrounding counties around Hamilton 
County, Butler, Clermont, Warren what we are seeing in terms of 
trends is that the increase number of foreclosures, the percent 
of increase, is going up dramatically in those surrounding 
counties. That is especially in Warren County last year from 
2008 to 2009, and this is taken from statistics compiled by the 
Ohio Supreme Court that the numbers went up 14.7 percent. That 
is for Butler, Clermont, and Warren Counties. From 2005 to 2009 
Butler County went up 54 percent, Clermont went up 65 percent, 
and Warren County went up 60 percent.
    If you assume that the number of foreclosures is about 50 
percent of the filings, that amongst those three counties for 
last year we may have seen 2,331 homes lost due to foreclosure.
    Besides the impact on the actual number of homes--actual 
number of families who lost their homes due to foreclosure, I 
think we have all seen research that talks about the impact on 
the community, and some of those I will just enumerate briefly.
    One is the effect on property values. The effect on 
property values will encourage people to move if their 
community is going down due to number of foreclosures, and we 
have seen this in Cincinnati, and certainly Hamilton County; 
that people will move and will change the makeup and the 
demographics of those communities. Declining tax revenues for 
municipalities which means services are harder to fund. 
Increased cost for taxpayers; certainly more vacant and 
abandoned buildings creates more expenses for local taxpayers.
    And finally, the health and well-being of those 
communities, because of the health conditions, the declining 
neighborhood conditions of those communities. These factors may 
push or encourage existing homeowners in a community to look 
elsewhere for housing and could result in a totally different 
makeup or demographics of that community.
    I have not seen, and I've asked the question many times, if 
there's been any tracking of where people go when they lose 
their homes. People that normally lose their homes that are in 
foreclosure, for one thing, are embarrassed. It's not something 
that they brag about, and if they have lost their home due to 
foreclosure, you know, there are a number of anecdotal 
information as to where they go. Some people, maybe, I'm sure 
find other housing through apartments. Although, many times if 
you go and try to rent an apartment they look at credit, and 
your credit rating.
    So, if your credit is poor after a foreclosure, it's going 
to affect your ability to find other housing. They may move in 
with family. They move to another State or they may become 
homeless.
    Recently, I've just heard stories of--I met with someone 
from a social service agency last week who talked about, shared 
a story of another woman in the community that she works in and 
walked out of her house. This was a fairly middle class 
community, but she walked out of her house and saw a car that 
was parked on the street and it ended up being a family of four 
that had been displaced because of foreclosure. And this woman 
took the initiative to find housing, but how many people are 
out there and uncounted?
    I certainly--during the first panel--heard a number of 
testimonies, number of ideas about how to reach those 
populations that are foreclosed on, homeless, displaced for a 
number of reasons, and I certainly applaud those efforts. I 
don't think there's any simple or easy answer to this problem 
of reaching families who are under growing foreclosure. I think 
the idea of reaching out, going out into the communities, and 
knocking on doors, using existing organizations, nonprofits, 
churches to encourage people to fill out the form are all 
important.
    Certainly, the information that is collected through the 
Census is important to all of us in terms of documenting what 
is the change to demographics in the communities that we serve, 
and we hope that through the Census it will provide us that 
kind of information. The importance of reaching people, and 
encouraging people to fill out the forms is essential and we 
need to do all we can do get this right. Thank you very much.
    [The prepared statement of Mr. Scharfenberger follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you very much, Mr. Scharfenberger. Mr. 
Riviero, 5 minutes.

  STATEMENT OF JASON RIVIERO, OHIO STATE DIRECTOR, LEAGUE OF 
                 UNITED LATIN AMERICAN CITIZENS

    Mr. Riviero. Thank you, good afternoon. Well, Mr. Chairman 
Clay and members of the committee, Representative Driehaus, 
thank you for having me here today and on behalf of the League 
of United Latin American Citizens' National Board, I would like 
to express our appreciation for allowing us a few short moments 
to summarize our assessment of the challenges in enumerating 
the Latino community within our specific region here.
    The next few minutes I would like to just point out the 
impressive figures of growth among new Americans and summarize 
both the positive elements and areas where our community sees 
areas of improvement in order to ensure a complete count.
    LULAC serves as a deeply committed partner to the 2010 
decennial census and its mission of complying with the U.S. 
Constitution's mandate of counting every person living within 
this country. All LULAC--national, State, and local officers--
have been trained and encouraged to activate LULAC's 
partnership with the 2010 decennial census. LULAC serves on the 
National Complete Count Committee and here locally with Mayor 
Mark Mallory's Complete Count Committee. Despite efforts like 
the Vitter Amendment and others to discourage a complete count, 
our initiatives to combat undercount include: Ya Es Hora, a 
historic non-partisan Latino civic participation campaign 
launched as the Latino community's action-oriented followup to 
the immigration mobilizations of 2006.
    In addition, we have a large youth-focused social media 
campaign with Voto Latino; national local training seminars 
held across the country. In addition, our national staff works 
with Mr. Thomas Mesenbourg and Ms. Irma Harahash of the 
National Census office to help increase the employment of 
Hispanics in the 2010 census.
    Representing Ohio, I'd like to point out just a few 
important statistics because traditionally when you look at 
Ohio you don't consider it one of the traditional destinations 
for many Latinos or new immigrants. However, looking at the 
figures over the past 10 years it's quite a surprising jump.
    So, in 2007, the foreign-born share of Ohio's population 
rose from 2.4 percent in 1990 to 4.7 percent, which equals 
roughly about 420,000 immigrants: Of that figure, more than 
half are Latino. Economically, the 2008 purchasing power of 
Ohio's Latinos totaled 6.1 billion, an increase of 291 percent 
since 1990. Moreover, the State's 7,109 Latino owned businesses 
had sales receipts of 1.3 billion and employed 11,348 people 
back in 2002. On a smaller scale the 1.1 percent of the State's 
work force of estimated 65,000 workers were undocumented based 
on the 2008 figures.
    However, if this percentage of unauthorized immigrants were 
removed from Ohio, the State would lose 4.1 billion in 
expenditures, 1.8 billion in economic output and approximately 
25,000 jobs.
    These aforementioned figures, although impressive, are most 
likely only telling half the story, I believe and most of our 
partners do too. It is my professional opinion that Ohio's 
Latino population is much higher than the level of businesses 
sustained in our community. As a nontraditional destination, 
Ohio and Cincinnati has over the past 10 years become a 
destination for new immigrants 0-5 years in the country. In 
Cincinnati alone the economic growth from 1990 to 2005 was 43 
percent, shadowing the 2.3 percent increase of the percentage 
point share among immigrant workers. The bottom line is that 
emerging areas like Cincinnati deserve just as much of a focus 
in effort from your traditional Latino urban areas.
    So, let me preface my next two points which is what will 
basically summarize where we see the positive, and where we see 
some areas of improvement. The first one is, of course, it's 
difficult to baseline this just based on the 2000 census 
because we have seen a tremendous jump and a tremendous effort, 
and I think even within the national offices of the Census are 
deeply committed to this. We can see this in the funding of the 
media campaigns that are going across the country. During the 
group-quarter enumeration process, the U.S. Census team at both 
the national and local offices throughout Ohio have 
exceptionally branded the Be Counted message.
    Nationally, the multi-million dollar campaign launched 
among Spanish language media has been effective and 
demonstrates a commitment by the national office to make a 
strong case for enumeration.
    Locally, we have seen U.S. Census ads in Spanish language 
media and Partnership Specialist active in numerous community 
activities spreading a concise message of the newly revised 
form, which is less intimidating, obviously, for many 
immigrants. The public relations campaign has engaged local 
organizations and leaders who in turn are ensuring that 
individuals have nothing to fear when filling out the Census 
form.
    In Cincinnati, I can personally confirm the local field 
offices success in establishing meaningful partnerships with 
grass-tops and grassroots leaders.
    The other spectrum I would like to point out is the 
Hispanic recruiting effort--and this is where we see 
significant recruiting efforts and I'm sure people have heard 
this in the past. However, this is of particularly important 
interest, because it's not just about hiring people within our 
own community, but it's also an effective tool to enumerate in 
the process. So, unlike the U.S. Census Campaign awareness 
efforts, the factor which will truly determine high 
enumeration, is the factor in which we see a falling grade.
    This is demonstrated in several regions. I would like to 
point this out. Based on the Chicago Census Region, we had 2.9 
percent of those employed were Hispanics out of Chicago. That 
was at 2000, so the fall of last year, OK. The Charlotte 
Regional office of 2.9 percent after the 2000 and--2498 DAPPS, 
which is the Decennial Applicant Personnel and Payroll System. 
The percentage of Hispanics dropped to 1.2 percent. The Detroit 
office with 3.48 percent, indicating the regional office was 
4.4, after hiring the 2250 DAPPS, it dropped to 0.97 percent. 
This is a very dismal record, I believe, in the Census 
headquarters at that time. And the fall was 4.43.
    Reports of total Hispanics in the U.S. Census Bureau work 
force as of September 2009, employment statistics submitted by 
the U.S. Census pursuant to LULAC Census Commission's specific 
request, indicates as of pay period ending September 12, 2009, 
as follows--I have the figures there statistically, but you can 
see them. They are all within single digits, especially within 
areas that you have a higher double-digit count of Latinos 
living in areas up to 20 percent in some cases.
    Within Ohio alone, I can only count, I personally know that 
there's four to five supervisory positions that are filled by 
Latinos. I listed them there that I know; that could have 
changed here recently. I don't know if Cincinnati has hired 
anyone up to this point for partnership; that could have 
changed. And where I see that--we have a strong connection.
    Let me point this out so that we are clear. The national 
offices are very supportive of this effort, and I believe the 
local offices are as well. But we where we are seeing the 
backlog and really the problem situation is with our regional 
offices, OK. To where we are sending applicants--somehow the 
problems are there.
    I think our recommendation is that there are some specific 
cultural nuances and barriers that are preventing applicants 
from coming forward and unless we are able to really increase 
those numbers, it's going to be very difficult, and considering 
especially in the Hamilton areas that are very hard-to-count.
    Because, traditionally--and I've seen this--this is more 
than just having a form that is in Spanish. It's also having 
people that understand the culture, and that basically, you 
know, look like you and me. That is a fair case to make, I 
believe.
    So, as a State Director for Ohio I would like to thank you 
for the opportunity to share our insight as it relates to the 
Latino community and I would like to open it up for questions.
    Mr. Clay. Thank you so much, Mr. Riviero, and we will now 
go to Ms. Hopkins for 5 minutes. You may proceed.
    [The prepared statement of Mr. Riviero follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
STATEMENT BY SUZANNE HOPKINS, DIRECTOR OF PROGRAMS, THE CENTER 
              FOR INDEPENDENT LIVING OPTIONS, INC.

    Ms. Hopkins. Thank you, Chairman Clay, Representative 
Driehaus, and distinguished members of the Subcommittee on 
Information Policy, Census, and National Archives, for holding 
this important hearing. I appreciate the opportunity to submit 
testimony on a topic that could have a significant impact on my 
own life and the lives of other individuals with disabilities.
    Again, my name is Suzanne Hopkins. I'm the director of 
programs for the Center for Independent Living Options [CILO], 
that's is our acronym, which serves as an advocacy and public 
education center for individuals with a broad range of 
significant disabilities in the seven counties included in the 
Cincinnati Metropolitan area. CILO delivers high quality 
comprehensive cross-disability based independent living 
services to over 1,500 individuals annually.
    In CILO'S efforts to serve our consumers we have recognized 
the following reasons why people with disabilities are under or 
uncounted. Many people with disabilities do not report or claim 
to have the disability due to modesty or embarrassment. Another 
attributing factor is the design of the survey questions. Due 
to ethnic culture many people do not recognize the name of 
their diagnosis and, therefore, don't record it.
    For instance, diabetes versus bad blood sugar. If we have a 
national healthcare system it would not be under-reported for 
each diagnosis or specific type of disability. Also clustering 
specific types of disabilities into one specific category. For 
instance, those with blindness and deafness are all listed 
under sensory conditions in disabilities rather than 
separately.
    A kitchen sink definition of disability, for example: One 
or more activities of daily living or instruments of daily 
living such as using a wheelchair, a cane, crutches or a walker 
or recipient of Federal disability benefits. This definition 
excludes those with primary disabilities of cognitive or 
psychiatric disabilities.
    Also, not reporting--another reason is not reporting health 
conditions or secondary disabilities. Many individuals have a 
primary disability but do not list their secondary disability 
or other conditions that they may have. Again, depending on 
ethnic culture or need for personal care assistance those 
residing is subsidized housing may not report all members in 
the household due to fear of losing their rental assistance 
subsidy.
    Furthermore, inconsistent reporting definitions of 
disabilities such as the survey of income and program 
participation [SIP] Report. They exclude the--excluded on their 
report are people with disabilities that are unable to work, 
those who are on SSI, SSCI, Medicaid, Medicare beneficiaries 
and those who are institutionalized.
    In consistent survey questions, to estimate the number of 
people with disabilities used by the Census Bureau's American 
Community Surveys and the Bureau of Labor Statistics' Current 
Operation Survey, subsequently, they will yield different 
estimates of number of people with disabilities because they 
identify the population with disabilities differently.
    So, those reports are not consistent, those two different 
reports. Conflicting data could create confusion with elected 
officials and policymakers who question the data's credibility 
and reliability. Such an outcome would potentially complicate 
an independent living center's advocacy effort even more. 
Careful attention will be needed for how the data is used, how 
the differences are explained, and what policy conclusions are 
reached as a result. A possible solution could be to design a 
Federal program to count the number of people with 
disabilities.
    And, last, unemployment rate among people with 
disabilities--people with disabilities that are left out of the 
labor force, because it drops people who have not actively 
looked for work in the past 4 weeks thus people that are 
disabled are discouraged in the job search process and it also 
misses people on SSCI and SSI. It would affect--in regards to 
funding, the Census data directly effects funding, many 
programs critical to individuals with disabilities, including 
programs for education, healthcare transportation, employment 
training and housing. The Federal Government uses Census 
information to guide the annual distribution of approximately 
15 billion in--people with disabilities.
    For example, the information is used to for IL dollars; 
Independent Living dollars is what the acronym stands for, are 
allocated to the States based on total population. The 
population in Ohio is declining; therefore, so is independent 
living funding, even though the disabled population will be 
growing because of the aging of the baby boomers.
    If the Census provided a means to accurately count people 
with disabilities in each State, the information could be used 
in the allocation process. It would also help State and county 
agencies plan for eligible recipients under the Medicare, 
Medicaid and supplemental security income programs. Distribute 
funds and people with disabilities and the elderly under the 
Rehabilitation Act, distribute funds for housing people with 
disabilities under the Housing and Urban Development Act, 
ensure that comparable public transportation services are 
available for all segments of the population under the 
Americans with Disabilities Act or Federal grants under the 
older Americans Act based on the number of elderly people with 
physical and mental disabilities, and make available special 
education for children ages 3 to 5 through special education 
preschools.
    As Mayor Mallory testified, and stated in his testimony, 
Cincinnati is estimated to be undercounted by approximately 
45,000 people. We would like to know how many of these 
individuals have disabilities in the Greater Cincinnati area. 
For each person not counted, the city of Cincinnati loses 
$2,263 per year in Federal funding.
    Mr. Chairman and Representative Driehaus, members of the 
committee, that concludes my testimony. Thank you for this 
opportunity. I open it up to questions.
    Mr. Clay. Thank you so much. Mr. Spring, you're recognized 
for 5 minutes.
    [The prepared statement of Ms. Hopkins follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
STATEMENT OF JOSH SPRING, GREATER CINCINNATI COALITION FOR THE 
                            HOMELESS

    Mr. Spring. My name is Josh Spring. I am the executive 
director of the Greater Cincinnati Coalition of the Homeless. 
We have been around since 1984. We are the organization where 
all organizations related to homelessness come together. We 
have approximately 49 member agencies in the Greater Cincinnati 
area; that covers most of Hamilton County and a little bit 
outside that.
    Generally speaking, there are kind of three levels or forms 
of homeless that is an important distinction to make. The first 
level is people who stay outside. People not in a shelter 
system, not in a normal living setting that might be under a 
bridge, an abandoned building, things like this. In 2000, this 
particular population of Cincinnati was severely undercounted. 
According to the Census, two people were sleeping outside in 
Cincinnati. Two. Two whole people. And so it was severely 
wrong, and we don't want to--we essentially don't want this to 
happen again.
    So, actually, this particular part, our community, we do 
this count three to four times a year anyway. HUD Housing and 
Urban Development requires one and we try to do better than 
that. And so the way we do it, we come together about once 
every quarter, we go out in teams, and we do a count very 
similar, first and last name, last known Social, birthday, very 
similar questions and we usually turn around good results 
because we take out the outreach workers that are on the street 
every single day. And so they lead us into the camps and we get 
it down quick.
    In this shelter system--that's kind of the next level--
people that are in the shelter system or transitional housing. 
Those people, you know, we estimate that there's approximately 
1,200 to 1,500 people on any given night within that particular 
system. It's my understanding that our organizations have been 
working with the Census workers and that Census workers are 
setting up times and dates to come and actually help administer 
forms.
    This is an important step for our shelters and like that, 
will need to have the forms in bulk prepared. This is something 
where mailing alone simply will not get the job done. And, so, 
it's also important, and this is the part that we want to come 
in with, is that our case managers, our social workers at these 
sites understand how important this is and how simple it can 
be. Their jobs are already tough enough. They have high case 
loads, because it's not going down. It's on the rise and adding 
one more form can be difficult.
    But we are used to doing these kinds of things in terms of 
trying to register people to vote, for example, coordinating 
the giving and taking of forms. And so we want to do that 
again.
    Further--this is kind of the third tract and definitively 
going to be the most difficult to count, I believe: The group 
of people that are constantly moving from one household, one 
family friend to the next. You know, we have termed that as 
``couch surfing.'' This is going to be the most difficult 
because Housing and Urban Development does not define that 
group as homeless because funding from HUD doesn't interact 
with these people very often.
    So we don't know how many people there are. In 2000, we 
estimated that in a given year 25,000 people experienced 
homelessness in Cincinnati incorporating all three of these 
forms. We don't know--we are sure it's higher due to the 
economic crisis we are currently experiencing.
    One of the main hassles, I believe, is going to be when the 
form hits the door of a household and to have somebody there 
that is staying a couple nights, one--the transitory nature of 
this. You know, they might be here just a couple nights and 
move on. They may not understand--``Where do I put down that 
I'm living? I'm living here and I don't know where I'm going to 
be tomorrow night.'' Further than that is, kind of the fear of 
the landlord finding out and evicting the host.
    So, I think it's important that we continue the message 
that this information is not to criminalize you, this 
information is held in secret, the specifics for decades. That 
is very important.
    And further we do have--the most connection we have right 
now, as you know that through the Stimulus Plan there were 
rapid re-housing dollars and homeless prevention dollars that 
came forth to localities. Those dollars in the recent months 
have opened up a slight avenue for us to have communication 
with this body of people. We have a local phone number, 381-
SAFE where people call in to get this assistance.
    So, on a daily basis we can get numbers of how many people 
are calling; that gives an extremely small snapshot of what 
might be going on.
    For ourselves, our own initiatives, for the people outside, 
we have been in communication with the Census workers for some 
months now. What we want to do is simply schedule another one 
of our counts. We have actually scheduled two tentative dates 
for the end of this month to try to be flexible with Census 
workers. We can go out and they can join us, and we can get the 
count done.
    We will always miss some people because we have vacant 
buildings and cannot go in all of them. It's dangerous to do 
so. But we can really get the count done. The last count that 
we completed a month and a half ago, we counted about 75 people 
outside.
    Further, in the shelter system, like I said, some strong 
coordination with just getting the forms, making them 
available. That is the biggest thing. If they are available and 
it's easy to get it done. The couch surfing we want to be more 
than helpful with polling the contacts from the hotline.
    Locally, I think the Census Bureau, the local workers have 
been--have been very passionate about getting this done. They 
have contacted us thoroughly. I think the one and only 
criticism that I would offer, it's not about any specific 
person at all, because everyone I've spoken with has been more 
than helpful, is that we have--I've gotten calls from numerous 
Census workers with the same questions and I always give the 
same answers.
    So, it's just a hassle to try to coordinate all the calls. 
So, if we get down to one kind of line item--I think I'm almost 
there--one person to talk to, we can get this done. And we do 
believe it's important, because for funding efforts, for 
advocacy, for the whole thing, we have to know how many people 
are experiencing this and the number is versus 2000 and now 
there are more people experiencing homelessness.
    In the winter, our shelter numbers go higher. That's the 
same across the country. This year we have winter numbers in 
August. That is new. And we don't have a grasp on what is going 
on overall. We want to have a grasp of who is doubled up, 
because we know that people, before they hit the shelter 
system, they are doubled up. We would like to be able to help 
them so the Federal Government has a real accurate snapshot of 
that group. That might alleviate, give more funding to help 
people in the shelter.
    Mr. Clay. All right. Thank you so much, Mr. Spring. Mr. 
Duncan, you're recognized for 5 minutes.
    [The prepared statement of Mr. Spring follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
STATEMENT OF TODD DUNCAN, DIRECTOR OF HOUSING AND FOOD SERVICES 
                AT THE UNIVERSITY OF CINCINNATI

    Mr. Duncan. Thank you, Chairman Clay, Representative 
Driehaus, and other distinguished members of the Information 
Policy, Census, and National Archives Subcommittee. Thank you 
for the opportunity to testify today. My name is Todd Duncan. I 
serve as the director of housing and food services of 
University of Cincinnati, responsible for overseeing the 
financial facility and administrative functions of the 
University's housing system.
    As background, for those who are unfamiliar with the 
University, UC is classified as a research university, very 
high in research activity, by the Carnegie Commission, and is 
ranked as one of America's top public research universities by 
the National Science Foundation with a student population, 
including undergraduates and graduate students, of 
approximately 40,000; 3,800 of these students live in eight 
university residence halls, 84 percent of our first-year 
students reside in our facilities. The facilities range in size 
and level of amenities.
    In my opening statement, I will briefly discuss UC's 
interaction with Census officials to date, identify some of the 
challenges experienced by my department and offer suggestions 
for your consideration regarding efficient and effective 
enumeration of students, residential or commuter, at colleges 
and universities.
    During the question-and-answer period, I'll be happy to 
expand on these topics and provide my thoughts about how Census 
officials may be able that ensure a more efficient and accurate 
count of students as preparations are made for the 2010 census.
    Various Census officials made independent contact with the 
Office of Housing and Food Services last September. The purpose 
of each meeting was to confirm address, contact information and 
current occupancy of specific residence halls. Some residence 
halls were duplicated and other residence halls were not 
identified in the inquiries made to our staff. Our staff 
requested to establish a single point of contact at the Census 
office.
    In February 2010, our office was visited independently by 
two members of the Census staff verifying the information 
collected in September 2009 and providing marketing material of 
the upcoming Census. Enumeration was reviewed and was 
determined that another planning meeting would be scheduled 
prior to the enumeration period of March 30th to May 14, 2010.
    Again, our staff requested to establish a single point of 
contact at the Census office. I must make note that the Census 
staff has been very professional in all interactions. On March 
10, 2010, a planning meeting was held with Mr. Howard 
Newcastle, director of field staff.
    With a goal of ensuring an accurate count of students, 
residential or commuter, I offered the following suggestions 
for developing an efficient and effective methodology for 
implementing the 2020 census for colleges and universities: 
Single point of contact. One person or one team from the Census 
Bureau contacts the President's Office of the institution 
seeking a similar single point of contact. Electronic delivery. 
Allow institutions of higher education to deliver the Census 
survey via electronic methods.
    Today's student/institution interaction is an electronic 
process for most institutions, from the admission application 
and academic registration to billing and issuance of grades. 
These systems have well-developed securities with student-
unique log-ins to insure data integrity. At the end of the 
prescribed period the institution can easily deliver the 
responsive data and the directory information of non-responsive 
students in accordance with FERPA.
    During the question-and-answer period, I'm be happy to 
identify my experiences of the 2000 census during my tenure at 
the University of Central Oklahoma or expand on the information 
I have provided. Again, I thank the subcommittee for the 
opportunity to testify today.
    Mr. Clay. Thank you so much, Mr. Duncan, and thank you the 
entire panel for their testimony today, and we will begin the 
round of questioning with Representative Driehaus.
    [The prepared statement of Mr. Duncan follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Driehaus. Thank you, Mr. Chairman, and I have several 
questions.
    Mr. Spring, you talked about the difficulty of counting the 
various groups of homeless, and you talked in part about some 
of the folks sleeping outside. Give more to the first panel in 
terms of when this count will take place for the hard-to-
locate. We are talking about spring going into early summer. It 
seems to me that's when you're going to have more and more 
people moving out of the shelters and spending the evenings 
outside. Does that become a problem for you and the 
organizations you work with in terms of trying to count those 
individuals?
    Mr. Spring. You are correct. There will be more people 
outside. For us it's not too much of an issue, because, we 
actually have average workers on the street level at least 5 
days a week, every week. What makes our count that we do go so 
smoothly is that they give everybody a heads-up that we are 
coming. That's why we really want to join with the Census 
workers and do it that way; otherwise, it simply will not work.
    Mr. Driehaus. Have you worked with the Census office 
locally to have someone from the Homeless Coalition employed by 
the Census Bureau for this specific purpose of reaching out to 
the homeless population in Cincinnati?
    Mr. Spring. We have not talked about employment. I've 
definitely, several times, relayed that we can do this count 
and we want Census workers to join us. So, it seems like right 
now what is in question is whether or not they're allowed to do 
the count in that fashion. And I've attempted to let them know 
that there really is no other fashion that will work; you 
cannot mail it, and the Census workers don't know where the 
camps are.
    Honestly, if we simply said, ``These are all the camps,'' 
and a worker goes, it's very likely the people at the camp 
won't talk. That's why we take outreach workers with us.
    Mr. Driehaus. Right. And of the organizations that existed 
today as it existed in 2000 as well.
    Mr. Spring. That's right.
    Mr. Driehaus. And we came up with a rather significant 
undercount. And so I guess what I'm concerned about is making 
sure that, you know, people of the Homeless Coalition are, in 
fact, working very closely with the Census to reach out, 
because in the constitution it says ``All persons.'' It doesn't 
say, ``All persons that own a single-family home'' or ``All 
persons that live in an apartment.'' It's ``All persons,'' and 
so the homeless are certainly part of that count.
    So I would certainly encourage the representatives to hire 
someone on specific to this purpose of, you know, counting the 
homeless population especially if we already have a model here 
in place here in Cincinnati. So, I appreciate that.
    Mr. Spring. Certainly, thank you.
    Mr. Driehaus. Jason, if I could speak to the Hispanic 
community for a minute. You heard in the first panel that when 
20 percent of the population of a given Census tract is deemed 
to be Hispanic or of another ethnicity that they will use an 
additional form, in Spanish, for example. There aren't many 
tracts like that in Cincinnati, if there are any. Yet, we have 
a sizable growing Hispanic population.
    I'm concerned that this, you know, Spanish language form 
will not be used in any of those tracts, given it won't reach 
the 20 percent threshold. However, we have very strong pockets 
of Hispanics living in Greater Cincinnati. Certainly, in parts 
of Price Hill and Butler County, Carthage.
    Obviously, with, you know, St. Charles and the outreach 
that Su Casa does, is there a way to work with the Census 
Bureau in identifying those pockets and getting those forms to 
those households other than determining or using that threshold 
of 20 percent of Census tract?
    Mr. Riviero. I think so, based on my conversations with 
some of these specialists here locally. They have set up 
different community partnerships similar to Mr. Spring's 
situation, where highly trafficked Latino populations that go 
and receive services.
    I think my concern is in the areas where families don't 
typically go through these processes, that some of the 
enumerators are unfamiliar with those tracts. The tracts that 
they hire are, let's say--because it's so spread out, they 
don't actually live in that neighborhood. So, I think it's 
important to hire folks, enumerators that live within those 
areas, or at least try to find someone that is closer to them, 
because Cincinnati is spread out. It doesn't make sense to have 
someone that lives in Hamilton County coming down and going up 
to Butler County.
    Or, you know, that's not going to necessarily be the case, 
but I think it's very important to be in those areas. And, yes, 
the 20 percent threshold would be difficult to reach, even 
many--so many other places across the country that can reach 
that kind of threshold.
    Mr. Driehaus. You know, I have a feeling and I assume, that 
this is true and many non-traditional households, especially 
first generation, second generation immigrants, not just 
Hispanics. We have a large and growing West African population 
in Cincinnati. You have households living--multiple individuals 
living in the same house; sometimes they are documented, 
sometimes they are undocumented.
    What is the likelihood that they are going to open the door 
for someone knocking on the door wanting to know how many 
people are in? And how do we overcome the fear in that, you 
know, what I think would come with that type of questioning?
    Mr. Riviero. Certainly, and that goes back to what I was 
referring to in the report; that besides knowing Spanish I 
think it's important to have other qualifications. Looking at 
other agencies, other governmental agencies, you see that 
there's some more specific guidelines in regard to minority 
groups and different requirements for people to apply.
    I know that basically the only differentiation is the 
language skill set, but I think there should be other 
requirements that we put forth in that as far as knowledge of 
the community. Perhaps being born in a foreign country or 
having that experience in your background is very important 
because, yes, it's an official, someone that they are already 
going to have some prejudice toward. I mean, I don't know if I 
made myself clear with that as far as the hiring process.
    Mr. Driehaus. Well, I just think it's important that we are 
getting the right people to knock on the doors because it does 
matter. It does matter. It's not just about language, it's 
about trust. And so getting, you know, recognizable faces and 
getting people that understand people's situations I think is 
important especially if we are going to try to get an accurate 
count.
    We could have people knocking on the doors, but if it's not 
the right people that understand the community, that understand 
the population they are working with, it's going to be an 
undercount, because we are not going to get people to be 
forthright in terms of reporting everyone living in the 
household.
    Mr. Riviero. That's right and I think that is the same for 
all minorities, so----
    Mr. Driehaus. I can continue or I can turn it over and we 
can go back and forth. Whatever you prefer.
    Mr. Clay. We will go back. Mr. Scharfenberger, the Postal 
Service says that 40 percent of the houses in Census Tract 16 
here in Cincinnati are either vacant or occupied illegally. 
Obviously, that poses several challenges for the Census.
    In your experience, when people occupying homes illegally, 
known as squatters, participate in a Census how can we 
effectively count this segment?
    Mr. Scharfenberger. I think that is a good question. One of 
the--there were a couple of elements that other people 
mentioned that I think are common to people in foreclosure or 
who might be sliding. No. 1, there's a sense of fear in whether 
they even respond to a mailing. I think in terms of--it's a 
good question. Whether people would respond to a Census 
enumerator coming out, if they were squatting in that building?
    Unless there was a trusted person that encouraged them to 
fill this out, it's possible or if they could meet that person 
at another location, you know, I was thinking that rather than 
at the house. But I can't imagine that if they were squatting 
that they are going to want to fill out a Census form.
    Mr. Clay. Be kind of difficult.
    Mr. Scharfenberger. It would be very difficult. I think the 
other situation that I thought about as other people were 
talking, Mr. Spring and Mr. Riviero, if someone is in between 
and awaiting for, I guess, the hammer to drop for lack of a 
better word. They are waiting for that sheriff's sale, and some 
people wait in the house; and even after the sheriff's sale 
they will wait. Will they fill out a Census form not knowing 
what their situation is going to be?
    Mr. Clay. OK. Good point. Ms. Hopkins, what is the best way 
to get the word out that the information you provide to the 
Census Bureau is confidential as well as the benefits, like you 
mentioned in your testimony, to the disabled community for 
filling out their Census forms? I mean, is it publications? Is 
it radio, TV, or Internet or all of the above?
    Ms. Hopkins. I would say all ways of media, especially, 
those for non-profit agencies such as ours, if you could 
provide us some information to distribute to your consumers 
with disabilities, all other disability-related agencies that 
provide services to individuals with disabilities. I understand 
there's a question-assistance center for those with visual 
impairments, hearing impairments that could assist them with 
completing the questionnaire. However, I'm not familiar with 
where that question assistance center may be located in 
Cincinnati.
    So, that would be helpful for us to distribute information 
to individuals with disabilities.
    Also if there's any type of literature to be handed out, 
that it also be in the format of Braille, large print and other 
formats to make better accessibility for individuals with 
disabilities.
    Mr. Clay. And the Census Bureau does provide information in 
Braille. Mr. Duncan, did the university get a single point of 
contact from the Bureau?
    Mr. Duncan. Yes, sir.
    Mr. Clay. OK. That's good to know. Let me ask you about, 
you know, of course the whole issue of semesters beginning and 
ending. If enumerators come after May 1st, will you have a 
reduced population on campus?
    Mr. Duncan. Chairman Clay, UC has a very unique academic 
calendar. We are on a quarter system and a very late quarter 
system, so we do not dismiss for the summer until mid-June. So 
we are safe there.
    Mr. Clay. I see. Yes, you are.
    Mr. Duncan. Your question is applicable in 95 percent of 
the universities in the country. We are one of the anomalies in 
that regard.
    Mr. Clay. It's good to know that they hang around here for 
longer on the campus. I'll turn it back over to Representative 
Driehaus.
    Mr. Driehaus. Mr. Duncan, the Census obviously uses an 
address system for trying to contact individuals. So, you know, 
it's based on household not on individual. Your system, I 
assume, in tracking students, I was interested in your 
electronic delivery methodology. I assume that is student-
oriented. So, how would you then be able to transpose that data 
into an address-type system that is used by the Census? Are you 
following me?
    Mr. Duncan. I am. Each student is assigned a bed space 
within our housing system, which is in a room, which is in a 
building, which is in a mailing address. So, when the student 
logs in with their unique identifier into the system we can 
self populate that information. What building, residence hall, 
they are actually in, what is the room number, which would be 
essentially the mailing address.
    That is publicly used, so that defaults in. Even 
simplifying the data that we provide, Todd Duncan, in room 101 
of Building 1, and then here are my responses to the survey.
    Mr. Driehaus. So, in addition to the questionnaires being 
returned, they can check that against the information that is 
provided by the university saying, ``Well, in fact, Mr. Duncan 
you should be in room 201 in this housing development?''
    Mr. Duncan. Yes.
    Mr. Driehaus. Are you using any form of social media to 
reach out to the student body? I assume there are communication 
methods that exist today to reach out in terms of social media 
to encourage people to participate in the Census, such as 
students?
    Mr. Duncan. We are not doing that ourselves. Now, the 
Census Bureau itself may have been getting out there with 
Facebook, those types of things. The most effective way we have 
still with our residential students is mass email. We send that 
message only to those students with directions. We do that 
multiple times in a quarter with everything from getting ready 
to check out at the end of the quarter, to going home for the 
summer.
    When a student applies to the university they are issued an 
email account, and it's identified to them at that point if 
they confirm their admission that this is the official point 
where the university will communicate with you. So, that is set 
in stone before they actually enroll the very first time to 
take their very first class at the university.
    So, we have a very effective way of communicating at the 
university. They are looking for an email and that easily for 
our purposes could be forwarded onto their parents; but in the 
case of the Census, they just need to complete this.
    Mr. Driehaus. So the day the questionnaires go out, the day 
the surveys go out, you are able to say, ``Please complete the 
survey and send it back?''
    Mr. Duncan. We can send out a reminder 8 days later to 
those who have not responded; not trouble students that have, 
just cross-reference the data real quick, run a little query--
``OK, this 30 percent has not, so let's only send out that 30 
percent. Hey, you still got 2 days, let's get this in, come 
on.'' If that doesn't work, we go to the face-to-face.
    But we should be able to do it in the most efficient and 
the most expedient way. One percent of Cincinnati's population, 
if I'm doing the round math--of the numbers we have heard 
today, we should be the easiest.
    Mr. Driehaus. Ms. Hopkins, can you tell me how CILO is 
working with other organizations here in Cincinnati around the 
Census to help the folks that you work with specifically, 
understand the importance of completing the Census and the 
consequences in terms of the disabled community and 
undercounting of the population that it serves?
    You're part of a broader network of organizations, 
obviously, reaching out to individuals with disabilities in 
Cincinnati. Is there a network of some type that is being 
called upon to reach out for purposes of the Census?
    Ms. Hopkins. We are not necessarily a network. We are the 
only Center for Independent Living in the Greater Cincinnati 
area. However, we are a network of 11 centers for Independent 
Living in the State of Ohio and 435 within the United States.
    However, we are each our own entity. We do network or 
collaborate with a lot of other disability-related 
organizations as well as we have some--a couple of homeless 
disability service programs for individuals with disabilities 
and families with disabilities and our organization is also a 
member of the Coalition for the Homeless as well.
    As far as the Census goes, we have not started any advocacy 
efforts on that yet, but we would be more than happy to do so.
    Mr. Driehaus. Yeah, I'm just thinking of the multiple 
entities here in town that work with people with disabilities 
and whether or not there has been a coordinated effort of any 
type to reach out to those served in, you know--just trying to 
emphasize the completion of the Census and the consequences of 
an undercount especially for the disabled community?
    Ms. Hopkins. Not that I'm aware of. However, most 
disability-related organizations, they are targeted toward a 
specific type of disability. However, we are unique in the fact 
that we serve cross-disability-based. Meaning, we serve of all 
types of disabilities of all ages.
    So, we would be, in my opinion, the prime agency to get 
that started or initiate such a process for the Census. If you 
have any suggestions or ideas, we are more than happy to comply 
with those.
    Mr. Driehaus. Great, thank you.
    Mr. Clay. Could we add another seat here for Mr. 
Mesenbourg? We would like to ask you to join us back at the 
table, so that we may do a little followup and expedite it 
quickly. And I'll let Representative Driehaus take it from 
here.
    Mr. Driehaus. Mr. Mesenbourg, thank you for hanging around. 
This conversation is really at the heart of what we are 
concerned about when it comes to hard-to-count populations. And 
so I'm interested especially--and I keep going back to this 
secondary data but these are the organizations that are rich 
with this data, especially for hard-to-count populations.
    So, I'm concerned that the Census Bureau is working very 
closely with grassroots organizations such as this to call upon 
them, especially for their secondary data, to help identify 
those that are particularly difficult to count.
    Mr. Mesenbourg. This panel has reinforced the importance of 
what we call our partners, and we now have 212,000 of them. 
They serve really as the trusted voices. They can convince the 
homeless and convince the Latino that has concerns about the 
Census. It could be the minister in the local church. We can do 
all the advertising in the world and spend endless amounts of 
money on it. But it's really the trusted voices in the 
communities that play a key role in convincing people that have 
concerns about reporting, that it's safe to report, it's easy 
to report, and it's important to report.
    So, I think this panel has re-enforced that. We are working 
with all of these organizations and we will continue to work 
with them.
    In terms of the disabled, we do have a tool kit available 
on our Web site that folks can download and put out to their 
partners. We have also, in the American Community Survey in 
2008, actually, changed the questions related to disabled 
persons. So for the first time in the 2009 survey, we're 
separately counting the seeing-impaired and hearing-impaired, 
and we are also for the first time measuring folks with 
cognitive issues and so on.
    So, I think that really that is the largest household 
survey done in the United States and I think that's an 
important first step in getting good measures of the disabled.
    With the homeless, we are working with Mr. Spring's 
organization and actually what we will do, we want to leverage 
their expertise. We will send folks at the end of this month to 
actually participate in that count. We will swear them in as 
Census employees to assist us. We clearly understand we need 
the gatekeeper to get us into that community. And help, so that 
will start March 29th, 30th, and 31st. So we look forward to 
working with them.
    The question on the foreclosures and squatters, clearly 
that's a difficult issue. If we can't get a response in our six 
contacts, what we will do is then go to the neighbors. And if 
people had seen there are five people living there we will try 
to get a proxy measurement and that's about the best we can do.
    I take LULAC's point about some of our recruiting numbers. 
We are taking this quite seriously. And right now we have more 
recent data. Actually, we started sharing information by race 
and ethnicity starting in August or September of last year, and 
we are putting that data out monthly. So, we are monitoring it 
ourselves.
    One of the challenges we face in the Detroit Regional 
Office is the number of Hispanics. Michigan has about 4.1 
percent, Ohio 2.6, West Virginia 1.1. So, we are at right about 
3 percent in terms of our work force. We are doing better than 
that with our partnerships, but there's always room for 
improvement. I think we all agree that we need to hire locally. 
We need to know people that know the neighborhood, and that is 
what we are working quite hard to do, and that's where our 
partners can help too.
    It's also a competitive process how people score in the 
test. That is important. We certainly appreciate the help we 
are getting from the University of Cincinnati and others. This 
is a partnership and we all have to work together. The Census 
Bureau cannot do it alone, nor can the partners that support 
us. We are very thankful for the support we are getting from 
everyone.
    Mr. Clay. And I'm certainly encouraged by the approach that 
the Bureau has taken in this Census to realize that you do need 
a true partnership with people. I think it's pretty innovative 
that you will deputize Mr. Spring's people and let them assist. 
I mean, because we have heard it in other cities too, that we 
can go and look over the Census-takers, show them, but you 
can't do it. I understand that.
    So, you figured out how to do it. It's critical that we do 
this. The whole community in your process. Thank you so much 
for that.
    Mr. Driehaus. I would just reiterate my concern that I hope 
the Census Bureau is using secondary source data and that we 
have people researching to verify what we should be seeing; not 
only are we talking about the neighbors who might be living 
there, but we have a good idea that unit is occupied.
    So, it's worth trying to get them to fill out a form and 
try to identify the specific individuals living in that 
particular household. I think, you know, a lot has changed in 
terms of the last 10 years in terms of the data available to 
us. It would be a shame not to do everything that we can to 
call upon that data and resources in order to get an accurate 
count.
    Mr. Clay. And, Mr. Riviero, hopefully you will get with 
your regional director and start referring some of the members 
of the organization to take the Census test, and that they can 
get involved too.
    OK. This will conclude the hearing. Let me, again, thank 
all of our witnesses, thank my colleagues and friends, 
Representative Driehaus for the invitation. Timing-wise this 
was perfect, and this community was the perfect setting for 
this hearing. I appreciate your invitation and I thank you all 
for your testimony. And that concludes this hearing.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
